          FINAL AUDIT REPORT

            Bureau of Land Management
      Coal Inspection and Enforcement Program

    OFFICE OF INSPECTOR GENERAL




No. 2003- I-0064                     September 2003
C-IN-BLM-0044-2002
This Page Intentionally Left Blank




                  i
TABLE OF CONTENTS
                                                                                         PAGE


INTRODUCTION ............................................................................ 1

        BACKGROUND AND SCOPE ................................................... 1

RESULTS OF AUDIT ...................................................................... 2

        OTHER MATTERS ................................................................. 3

STANDARDS .................................................................................. 4

RESPONSE..................................................................................... 4




                                                ii
This Page Intentionally Left Blank




                iii
                AUDIT REPORT


               This report presents the results of our audit of the
INTRODUCTION   Bureau of Land Management’s Coal Inspection and
               Enforcement Program. The objective of our audit was
               to determine whether the program adequately
               monitored coal production on federal and Indian leases.

               BLM manages about 31 percent of all coal resources in
BACKGROUND     the United States and oversees all phases of coal
 AND SCOPE     development on federal and Indian lands. BLM
               performs inspections of producing and non-producing
               coal leases on federal and tribal lands to verify coal
               production to ensure proper royalty billing and
               collection. BLM also inspects federally leased coal
               producing lands to determine whether the operations:

               ¾ Wasted or degraded other resources;

               ¾ Avoided or minimized damage to formations and
                 deposits or nonmineral resources;

               ¾ Complied with applicable laws, rules, and orders
                 and terms and conditions of federal leases and
                 licenses;

               ¾ Complied with all requirements of approved
                 exploration or resource recovery and protection
                 plans.




                          1
                          The Code of Federal Regulations (43 CFR § 3480.0-
                          6(d)(4)) requires the BLM to inspect at least quarterly
                          federally leased lands where operations for the
                          exploration, development, production, preparation, and
                          handling of coal are conducted. BLM’s policy requires
                          that production reported to the Minerals Management
                          Service (MMS) by the operator/lessee be independently
                          calculated to ensure proper royalty billing and
                          collection.

                          We performed our work from February through August
                          2002. We visited the BLM’s State Office and White
                          River and Little Snake field offices in Colorado; the
                          Rock Springs and Casper field offices in Wyoming; and
                          the Farmington field office in New Mexico. We visited
                          active mines, interviewed Bureau employees
                          responsible for monitoring mine activity, and reviewed
                          inspection and production verification information. We
                          concluded our audit work after visiting the several sites
                          listed above because we did not identify any significant
                          potential problems with the inspection and enforcement
                          program at the locations we visited.

                          We found that the monitoring of federal coal production
RESULTS OF AUDIT at BLM field offices visited was generally satisfactory.
                          Most of the offices we visited had acquired or
                          developed automated systems to aid them in verifying
                          production quantities. At four of the five field offices
                          we visited, the mine inspection and production
                          verification reports were generally well documented.
                          However, at the Farmington field office we found
                          inspection personnel did not document all inspections
                          and did not always perform required independent
                          verifications and comparisons between coal production
                          reported by the company and BLM’s calculations of
                          coal production. Inspection personnel at Farmington
                          told us that they did perform the required quarterly
                          inspections but failed to document them. Inspection
                          personnel stated that they failed to document all
                          quarterly inspections and perform all required
                          production verifications because they were working on
                          other assignments.




                                     2
                By not documenting inspections or verifying
                production, the Farmington field office is not able to
                assure that the production amounts reported by lessees,
                on which royalties are based, are accurate. We
                suggested that inspection personnel at the Farmington
                field office perform and document all required
                inspections and production verifications. Management
                officials at the Farmington field office stated that they
                have taken steps to correct the deficiencies identified.

                Suggested Action: We suggest that the Director of
                BLM ensure that all field office personnel perform all
                required production verifications and adequately
                document quarterly inspections.

                During our audit, we also looked at coal royalty rate
OTHER MATTERS   reductions in Colorado. BLM State Directors have the
                authority to award reduced royalty rates to companies
                meeting certain criteria. Reduced royalty rates can be
                awarded in order to encourage the recovery of coal
                resources. We reviewed two instances in Colorado
                where coal mining companies were receiving reduced
                royalty rates to determine whether they met eligibility
                requirements. In reviewing these two instances we
                found:

                ¾ One company submitted documentation with its
                  reduced royalty rate application that did not
                  conform to requirements. The financial statements
                  submitted by the company as part of its application
                  package were prepared and annotated as not
                  intended to present the results of operations in
                  conformity with generally accepted accounting
                  principles. We brought this to the attention of
                  BLM officials and they subsequently requested that
                  the company provide the documentation that
                  conformed to professional standards. In addition,
                  we confirmed that the company was no longer
                  receiving the reduced royalty rate after the reduced
                  rate expired in January 2002.




                            3
            ¾ The other company initially appeared to be no
              longer eligible for the reduced royalty rate based on
              information we had obtained regarding the
              company’s financial position. We suggested that
              BLM officials obtain more complete information
              from the company. BLM obtained such
              information and determined that the reduced
              royalty rate should remain in effect.

            We conducted our work in accordance with the
STANDARDS   “Government Auditing Standards” issued by the
            Comptroller General of the United States with some
            exceptions because of the limited scope of the audit.
            We included such tests of records and other auditing
            procedures that were considered necessary under the
            circumstances. In conducting our audit work we found
            that BLM’s monitoring of Federal coal leases was
            generally satisfactory and, except for the matters
            discussed in the Results of Audit section, nothing came
            to our attention that merited additional work.
            Therefore, we concluded our work at the end of the
            survey phase. As a result, the nature and scope of the
            work conducted was limited to those procedures
            performed during an audit survey. For example,
            management controls were not reviewed, and a risk
            assessment was not completed.

            Since this report does not include any
RESPONSE    recommendations, a response is not required. However,
            we would appreciate being kept informed of any
            additional actions you choose to take as a result of this
            report.

            Section 5(a) of the Inspector General Act (5 U.S.C. §
            App. 3) requires the Office of Inspector General to list
            this report in its Semiannual Report to the Congress.

            We wish to thank BLM for its assistance and
            cooperation and for taking timely actions to address the
            issues brought to their attention during our review. If
            you or your staff has any questions regarding this report
            please call Ms. Anne L. Richards, Regional Audit
            Manager at (303) 236-9243.




                       4
                            How to Report
                Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone — Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit
allegations of any inefficient and wasteful practices, fraud, and abuse related to
Departmental or Insular Area programs and operations. You can report allegations to us
by:
             Mail:         U.S. Department of the Interior
                           Office of Inspector General
                           Mail Stop 5341-MIB
                           1849 C Street, NW
                           Washington, DC 20240
             Phone:        24-Hour Toll Free                 800-424-5081
                           Washington Metro Area             202-208-5300
                           Hearing Impaired (TTY)            202-208-2420
                           Fax                               202-208-6081
                           Caribbean Field Office            340-774-8300
                           Hawaiian Field Office             808-525-5310

             Internet:     www.oig.doi.gov/hotline_form.html




                         U.S. Department of the Interior
                           Office of Inspector General
                               1849 C Street, NW
                             Washington, DC 20240
                                    www.doi.gov
                                   www.oig.doi.gov
